               FEDERAL PRISON INDUSTRIES, INC.
                 ANNUAL MANAGEMENT REPORT
                      FISCAL YEAR 2009

                  OFFICE OF THE INSPECTOR GENERAL
                     COMMENTARY AND SUMMARY

       This audit report contains the Annual Management Report of the
Federal Prison Industries, Inc. (FPI) for the fiscal years (FY) ended
September 30, 2009, and September 30, 2008. In accordance with the
Government Corporation Control Act, as amended (31 U.S.C. §9105), and
under the direction of the Office of the Inspector General (OIG), KPMG LLP
performed the audit in accordance with U.S. generally accepted government
auditing standards. The audit resulted in an unqualified opinion on the
FY 2009 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with U.S.
generally accepted accounting principles. For FY 2008, the FPI also received
an unqualified opinion on its financial statements.

      KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2009, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified one significant deficiency.
The significant deficiency related to vulnerabilities identified in the FPI’s
financial management. Specifically, improvements are needed in the FPI’s
inventory count controls. In the FY 2009 Report on Compliance and Other
Matters, the auditors identified no instances of significant non-compliance
with applicable laws and regulations.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquires of its representatives. Our review, as differentiated
from an audit in accordance with U.S. generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the FPI’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the FPI’s financial
management systems substantially complied with the Federal Financial
Management Integrity Act of 1996, or conclusions on compliance with laws
and regulations. KPMG LLP is responsible for the attached auditors’ reports
dated November 6, 2009, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply,
in all material respects, with U.S. generally accepted government auditing
standards.
